No. 20-

 

 

IN THE
Supreme Court of the United States

JANE CUMMINGS,
Petitioner,
Vv.

PREMIER REHAB KELLER, P.L.L.C,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 21st day of August 2020,
caused three copies of the foregoing Petition for a Writ of Certiorari to be
served on each of the below-named counsel by first-class mail, postage
prepaid, and further certifies that all persons required to be served have been
served:

Brian Scott Bradley

WATSON, CARAWAY, MIDKIFF &
LUNINGHAM, LLP

200 Fort Worth Club Building

306 W. 7th Street

Fort Worth, TX 76102

Email: sbradley@watsoncaraway.com

Telephone: (817) 870-1717

Facsimile: (817) 338-4842

BH

Brian Fletcher
Counsel for Petitioner
